Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Respiratory Assist Devices
         With Back-up Rate




                        JUNE 2001
                      OEI-07-99-00440
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the health
and welfare of beneficiaries served by them. This statutory mission is carried out through a nationwide
program of audits, investigations, inspections, sanctions, and fraud alerts. The Inspector General
informs the Secretary of program and management problems and recommends legislative, regulatory,
and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Chicago regional office prepared this report under the direction of William Moran, Regional
Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff included:

REGION                                                 HEADQUARTERS

Tim Dold, Project Leader
                              Alan Levine, Program Specialist
Ann Maxwell, Lead Analyst
                             Stuart Wright, Director, Medicare and
Ianna Kachoris, Program Analyst
                              Medicaid
Linda Paddock, Program Analyst
                        Brian Ritchie, Director, Technical Support
Michael Barrett, Program Analyst
                             Staff
Elander Phillips, Program Assistant
                   Barbara Tedesco, Mathematical Statistician
Margarita Rodriguez, Program Assistant
                Scott Horning, Program Analyst
Erin Bliss, Intern





      To obtain copies of this report, please call the Chicago Regional Office at (312) 353-4124.
          Reports are also available on the World Wide Web at our home page address:

                                    http://www.hhs.gov/oig/oei
                         EXECUTIVE                           SUMMARY


PURPOSE

          To determine if the bi-level respiratory assist device with a back-up rate receives frequent and
          substantial servicing.

BACKGROUND

          The Omnibus Reconciliation Act of 1993 (OBRA 1993) amended the Social Security Act to
          exclude ventilators that are “either continuous airway pressure devices or intermittent assist
          devices with continuous airway pressure devices” from the “frequent and substantial servicing”
          payment category. The Health Care Financing Administration (HCFA) has proposed that the
          bi-level respiratory assist device with a back-up rate be reassigned to the capped rental
          category in accordance with the exclusion implemented by OBRA 1993, but has not yet
          completed action on this proposal.

          Under the frequent and substantial payment category, suppliers are paid an established monthly
          rental fee as long as the device is medically necessary. Under the capped rental payment
          category, suppliers are paid a monthly rental fee for a stipulated amount of time at which point
          either Medicare purchases the machine on behalf of the beneficiary or the beneficiary continues
          to rent the device on their own. The impact of reclassifying the device would be to reduce
          Medicare reimbursement for the use of this device.

          In order to help determine the appropriate category of DME reimbursement for bi-level
          respiratory assist devices with a backup rate, the Office of Inspector General conducted a
          study to determine whether such devices receive frequent and substantial servicing. In order to
          do this, we selected a stratified random sample from all Medicare claims for this device billed
          during September 1999. Our final sample consisted of 206 beneficiaries served by 182
          suppliers for a response rate of 74 percent.

FINDINGS

Supplier services consist primarily of routine maintenance and patient monitoring

          Manufacturers, suppliers, and beneficiaries all report that the services provided to beneficiaries
          by suppliers consist of routine maintenance, mainly of the equipment’s accessories, and
          monitoring the patient’s interface with the machine. None of the suppliers or manufacturers
          indicated internal servicing as part of the regular servicing protocol.


Bi-Level Respiratory Assist Device with a Back-up Rate   i                             OEI-07-99-00440
For most beneficiaries, visits do not meet supplier protocols for frequency

          Supplier records reveal and beneficiary survey respondents report that supplier visits do not
          reflect the frequency stipulated by supplier protocols. Supplier records also indicate that visits
          are not made on a consistent basis. For example, the number of days between beneficiaries’
          first and second visits ranges from 1 to 468 days. Although beneficiaries are not receiving
          consistent visits suppliers continue to receive monthly rental payments intended to cover
          “frequent and substantial servicing.”

Contrary to supplier protocols, the number of beneficiaries receiving visits
declines over time

          Supplier records indicate that the number of beneficiaries receiving visits decreases over time. 

          While a decrease in the number of visits per beneficiary is expected based on supplier

          protocols, a decrease in the number of beneficiaries receiving services is not. Eighty-five

          percent of beneficiaries received a visit in the first quarter after they started using the machine. 

          The number of beneficiaries receiving a visit within the second quarter drops to 59 percent. In

          fact, almost half of the beneficiaries received their last visit from the supplier within 6 months of

          receiving their machine. Eight percent of beneficiaries never received a single visit. 


Covering the respiratory assist device under capped rental would have saved
Medicare $11.5 million annually

          Between January 1996 and September 1999, the Medicare program allowed $160 million for
          bi-level respiratory assist devices with a back-up rate. Under capped rental Medicare would
          have allowed $117 million for this same time period. This yields a potential savings of $43
          million or $11.5 million per year.

RECOMMENDATIONS

HCFA should move the bi-level respiratory assist device with a back-up rate from
the frequent and substantial servicing to the capped rental payment category

          The HCFA’s intention to move the bi-level respiratory assist device with back-up rate from the

          frequent and substantial payment category to the capped rental payment category appears

          justified. Beyond capturing savings, our findings indicate that the bi-level respiratory assist

          device with back-up rate primarily requires routine maintenance and patient monitoring. 

          Further, this level of servicing is not performed frequently nor consistently, often stopping after a

          short period of time.


          Given that the delivery of follow-up services is most intense early on, while the beneficiary

          adjusts to using and caring for the new equipment, a significant portion of follow-up services

          would be covered by the monthly payments allowed under the capped 



Bi-Level Respiratory Assist Device with a Back-up Rate   ii                             OEI-07-99-00440
          rental payment methodology. These rental payments continue for at least a year after the
          beneficiary receives the machine.

AGENCY COMMENTS

          The HCFA concurred with our recommendation, stating that they plan to move the bi-level
          respiratory assist device with a back-up rate from the “frequent and substantial servicing”
          payment category to the “capped rental” payment category. They believe this change is needed
          to accurately reflect the requirements of Section 1834(a)(3) of the Social Security Act.




Bi-Level Respiratory Assist Device with a Back-up Rate   iii                        OEI-07-99-00440
                            TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Supplier services are routine maintenance and patient monitoring . . . . . . . . . . . . . . . . . . 9


          Supplier visits do not reflect protocols for frequency . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Number of beneficiaries receiving visits declines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          Capped rental would save Medicare $11.5 million annually . . . . . . . . . . . . . . . . . . . . . . 16


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


APPENDICES


          A: Sampling . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


          B: Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


          C: Results of Hypothesis Testing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25


          D: Non-response Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


          E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28


          F: Related Office of Inspector General Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29





Bi-Level Respiratory Assist Device with a Back-up Rate               iv                                                 OEI-07-99-00440
                                       INTRODUCTION


PURPOSE

          To determine if the bi-level respiratory assist device with a back-up rate receives frequent and
          substantial servicing.

BACKGROUND

          Part B of the Medicare program pays for the rental or purchase of durable medical equipment
          (DME) used in the patient’s home when deemed medically necessary by a physician.
          Payments for this equipment are made by Durable Medical Equipment Regional Carriers
          (DMERCs) based on the following six payment categories:

                    <          Inexpensive or other routinely purchased equipment,

                    <          Items requiring frequent and substantial servicing, 

                    <          Customized items,

                    <          DME supplies, 

                    <          Oxygen and oxygen equipment, and

                    <          Capped rental items.


          In order to help determine the appropriate category of DME reimbursement for bi-level
          respiratory assist devices with a backup rate, the Office of Inspector General (OIG) conducted
          a study to determine whether such devices receive frequent and substantial servicing.

Noninvasive Positive Pressure Respiratory Assistance

          Noninvasive positive pressure respiratory assistance (NPPRA) is the administration of
          continuous positive air pressure to a patient using a nasal and/or oral mask. Avoiding the use of
          a more invasive airway access such as a tracheostomy, NPPRA devices are designed to be
          used on an “intermittent” basis (i.e. for only part of the day, usually during the hours of sleep).
          Such devices are non-life supporting and are to be distinguished from invasive ventilation
          administered via an intubated airway in a patient for whom disruption or failure of ventilatory
          support would lead to the “imminent demise” of the patient.1




          1
                    Region A DMERC Supplier Manual (Rev. 10, 6/99) Chapter 14.30-2


Bi-Level Respiratory Assist Device with a Back-up Rate   1                             OEI-07-99-00440
          Medicare covers three types of respiratory assist devices that provide noninvasive positive
          pressure respiratory assistance therapy:

          1.	       A Continuous Positive Airway Pressure (CPAP) Device (HCPC E0601) provides a
                    single level of continuous positive airway pressure.

          2.	       A Bi-Level Positive Airway Pressure Device without a back-up rate (HCPC K05322)
                    delivers adjustable, variable levels of positive air pressure to assist spontaneous
                    respiratory efforts and supplement the volume of air a patient inspires into the lungs.

          3.	       A Bi-Level Positive Airway Pressure Device with a back-up rate
                    (HCPCS K05333) also delivers adjustable, variable levels of positive air pressure to
                    assist spontaneous respiratory efforts and supplement the volume of air a patient
                    inspires. In addition to the automated delivery of bi-level air pressure, this device also
                    has a time back-up feature to detect when a patient has stopped or delayed breathing.
                    Whenever “sufficient spontaneous inspiratory efforts fail to occur” the back-up feature
                    ensures that the appropriate amount of air is provided.4

          The Health Care Financing Administration (HCFA) medical policy regarding these three types
          of respiratory assist devices became effective October 1, 1999. The policy contains coverage
          criteria and payment rules, including four therapeutic classifications for which NPPRA is
          medically indicated and a stipulation that the patient must use the machine at least 4 hours out of
          every 24 hours to be eligible for Medicare coverage. To assure that the requirements are being
          met, the prescribing physician must re-certify medical necessity and the beneficiary must certify
          appropriate levels of usage between 30 to 45 days after receiving the device.

          The four therapeutic classifications are: (1) restrictive thoracic disorders, (2) severe chronic
          obstructive pulmonary disease (COPD), (3) central sleep apnea, and (4) obstructive sleep
          apnea. Before a bi-level respiratory assist device with back-up rate can be prescribed for any
          of these conditions, therapy using a CPAP or a bi-level respiratory assist device without a
          back-up rate must be attempted.

          Even though these devices are covered under the same medical policy, they are covered under
          different reimbursement methodologies. Medicare covers the bi-level respiratory assist device
          with a back-up rate under the “items requiring frequent and substantial servicing” DME
          payment category, whereas the CPAP and bi-level respiratory assist device without back-up
          rate are covered under the “capped rental items” category.


          2
                    Prior to October 1, 1999, the HCPCS code was E0452.

          3
                    Prior to October 1,1999 the HCPCS code was E0453
          4
                    Region A DMERC Supplier Manual (Rev. 10, 6/99) Chapter 14.30-2


Bi-Level Respiratory Assist Device with a Back-up Rate   2                                OEI-07-99-00440
Frequent and Substantial Servicing Payment Category


          Items in this category are defined by the Social Security Act to require “frequent and substantial
          servicing to avoid risk to the patient’s health.”5 There are no definitions, within the law or
          HCFA publications, for “frequent” or “substantial” servicing of DME items in this category, nor
          is “risk to the patient’s health” defined. An indication of Congressional intent regarding items
          requiring frequent and substantial servicing exists in House Report 101-391 (I), accompanying
          the Omnibus Budget Reconciliation Act of 1987. It states that “this class of items would
          include those that are technologically sophisticated and require frequent monitoring or
          adjustment in order to make sure that they are functioning properly or being properly utilized by
          the patient.”

          Payment for equipment under this classification is made on a monthly rental fee schedule
          computed as set forth in Section 1834(a)(3) of the Social Security Act. Payment continues as
          long as the equipment is medically necessary. Maintenance to the equipment and any
          accessories to the equipment are considered to be covered under the monthly rental fee. It is
          the supplier’s responsibility to assure that an appropriate level of servicing is provided by
          appropriately trained personnel.

          There are currently eight items in the “frequent and substantial servicing” category, including
          volume ventilators, negative pressure ventilators, ultrasonic nebulizers, intermittent positive
          pressure breathing (IPPB) machines of all types, infusion pumps for uninterrupted administration
          of epoprostenol, and bi-level respiratory assist device with a back-up rate.

          Under the frequent and substantial payment category, the Medicare reimbursement for the bi­
          level respiratory assist device with a back-up rate has shown a continuous increase since
          19966. In 1996, Medicare allowed $34 million for bi-level respiratory assist devices with a
          back-up rate. Our estimate of total allowed amount for 2000 is $147 million. This represents
          more than a 300 percent increase over 5 years.

Capped Rental Payment Category


          Payment for capped rental items, as established in the Social Security Act, is made on a
          monthly fee schedule.7 This fee schedule is equal to 10 percent of the purchase price for the
          first 3 months and 7.5 percent of the purchase price for each remaining month.8 In addition to
          the monthly capped rental fee, Medicare will pay for accessories to the CPAP and bi-level
          respiratory assist device without a back-up rate, such as a nasal application


          5
                    Section 1834(a)(3)

          6
                    Our review of Medicare reimbursements for this device only went back to 1996. 

          7
                    Section 1834(a)(7)

          8
                    The purchase price is based on a national limited payment amount.



Bi-Level Respiratory Assist Device with a Back-up Rate     3                                          OEI-07-99-00440
          device, headgear, chin strap, tubing, and filters. During the 10th month of continuous rental, the
          supplier must offer a purchase option to beneficiaries who then have 1 month to make their
          decision.

          If the beneficiary opts not to purchase the equipment, monthly rental payments continue through
          the 15th month. After 15 months, the supplier must continue to provide the item to the
          beneficiary without charge to Medicare. The Durable Medical Equipment Regional Carriers
          will reimburse the supplier a “maintenance and servicing payment” computed as the lower of “a
          reasonable and necessary maintenance fee established by the Secretary” or 10 percent of the
          total purchase price for that item. This fee is payable every 6 months, whether servicing is
          provided or not, beginning 6 months after the 15th rental month.

          If the beneficiary accepts the purchase option, Medicare rental payments end after 13 months,
          and the supplier must transfer the title of the item to the beneficiary. For items that are
          purchased, payment for maintenance and servicing are made when repairs are “necessary to
          make the equipment serviceable.”9 This payment is made on the “basis of reasonable charges
          in the locality for maintenance and servicing.”10

Reclassification of Respiratory Assist Devices


          The Omnibus Budget Reconciliation Act of 1993 (OBRA 1993) amended the Social Security
          Act to exclude certain DME items from the “frequent and substantial servicing” payment
          category. While IPPB machines and ventilators remained in this category, “ventilators that are
          either continuous airway pressure devices or intermittent assist devices with continuous airway
          pressure devices” were excluded from the “frequent and substantial servicing” payment
          category.11 As a result, HCFA reclassified both the CPAP and the bi-level respiratory assist
          device without a back-up rate in the capped rental payment category. However, the bi-level
          respiratory assist device with a back-up rate continues to be reimbursed using the “frequent and
          substantial servicing” payment methodology.

          The HCFA has proposed that the bi-level respiratory assist device with a back-up rate be
          reassigned to the capped rental category in accordance with the exclusion under Section
          1834(a)(3) of the Social Security Act. The HCFA maintains that this type of device was
          inappropriately classified as an item requiring frequent and substantial servicing. Apparent
          concerns regarding the impact the exclusion of this item might have on beneficiaries have
          prompted certain members of Congress to request that HCFA examine




          9
                    HCFA DME Carrier Manual
          10
                    Social Security Act, Section 1834(a)(7)
          11
                    Public Law 103-66, Subpart D Sec. 13543


Bi-Level Respiratory Assist Device with a Back-up Rate        4                       OEI-07-99-00440
          the accuracy of the payment category and, in the interim, maintain the current reimbursement
          methodology for this device.

          On June 25, 1999, HCFA sponsored a Public Town Hall Meeting to discuss the exclusion and
          implications of moving the device to capped rental. At this meeting, industry representatives
          argued that changing the payment category of this device would significantly reduce the
          frequency of contact between the provider and the patient and that such a reduction would
          compromise the quality of care and clinical benefit that patients receive from noninvasive
          positive pressure respiratory assistance therapy. They argued that the capped rental payment
          category does not adequately cover the “patient’s home-care needs for frequent and substantial
          servicing of equipment and the routine in-home patient care needed for successful therapy.”12
          Further, some physicians expressed that the successful implementation of noninvasive ventilation
          requires close monitoring by a respiratory therapist and that reimbursement under the capped
          rental category will not allow vendors to provide such necessary care.

HCFA Coverage of Other Services


          Reimbursement for maintenance and servicing of a rented item is considered to be part of the
          rental fee. This is true regardless of DME payment category. Suppliers are allowed to charge
          a separate “maintenance and servicing” payment under capped rental, only after the item is
          purchased or the rental period ends but usage continues.

          The HCFA defines “routine periodic servicing” as “testing, cleaning, regulating and checking of
          the beneficiary’s equipment which is not [separately] covered.”13 The HCFA explains that such
          “routine maintenance” should be the responsibility of the owner of the equipment, rather than by
          a retailer or some other person who charges the beneficiary, and included in the rental fee.
          Normally purchasers of DME are given operating manuals which describe the type of servicing
          an owner may perform to properly maintain the equipment. Hiring a third party to do such
          work for the convenience of the beneficiary is not covered.




          12
                    Comments from the Public Town Hall Meeting on medicare Payments for RADs, June 25, 1999
          13
                    DMERC Carriers Manual, Part 3, Chapter II: Coverage and Limitation, Section 2100.4-B.



Bi-Level Respiratory Assist Device with a Back-up Rate    5                                       OEI-07-99-00440
METHODOLOGY


Sample Selection


          Using the Medicare Part B National Claims History data, we selected a stratified random
          sample of 300 Medicare claims (corresponding to 300 beneficiaries) for this device billed to
          Medicare during September 1999. The sample was categorized into two strata.

          <         Stratum 1: beneficiaries only using the bi-level respiratory assist device with a back-up
                    rate = 150 claims
          <         Stratum 2: beneficiaries using the bi-level respiratory assist device with a back-up rate
                    and oxygen = 150 claims

          The two strata were developed to determine if servicing of the equipment and patient
          monitoring varied between beneficiaries who use only a respiratory assist device and those who
          use both the device and oxygen.

          We excluded 21 suppliers from our sample as advised by the Office of Investigations, reducing
          our sample to 279 beneficiaries who received services from 229 suppliers.

Data Collection


          We collected data from various sources including Medicare beneficiaries, DME suppliers,
          DME manufacturers, and national organizations. Data collection occurred from May to June
          of 2000.

          Supplier Surveys. We mailed surveys to the suppliers that provided respiratory assist devices
          to the beneficiaries in our sample. This survey requested information regarding the frequency
          with which they visited beneficiaries and the type of service they provided. We requested that
          suppliers supplement the survey by providing copies of their protocols for equipment servicing
          and beneficiary monitoring.

          To accurately determine the frequency of supplier visits, we requested suppliers provide
          documentation of all beneficiary contact from January 1999 to the time they received our
          survey (roughly May 2000). We logged the dates of each contact and whether it was a home
          visit or performed over the phone. Since it was often not possible to determine the actual
          services provided during the visits, we were unable to capture the type of service provided
          during supplier visits from this data source.

          Data regarding visits to beneficiaries was linked to the corresponding beneficiaries in our
          sample. Accordingly, all of the information regarding the frequency of actual supplier visits can
          be projected to the population. Similarly, the information contained in supplier protocols
          outlining the expected frequency of visits was linked to the appropriate beneficiaries. The
          estimates regarding expected patterns of visits have also been projected to the universe.


Bi-Level Respiratory Assist Device with a Back-up Rate   6                               OEI-07-99-00440
          However, we did not attempt to generalize, to the population of suppliers, data in the supplier
          survey that was specifically about suppliers. This supplier specific data was not projected since
          suppliers were not randomly selected, but rather contacted on the basis of their connection to
          the sampled beneficiaries. In the report, we reference the sample whenever our estimates
          pertain only to our sample.

          Beneficiary Surveys. We completed telephone surveys with 235 of the sampled beneficiaries
          for an initial response rate of 84 percent. In most cases, we spoke with the sampled beneficiary
          directly; however, in some situations we spoke with the beneficiary’s spouse, family member,
          or caretaker. Ten of these beneficiaries used DME equipment other than the respiratory assist
          device under study, decreasing the total to 225 completed beneficiary surveys (81 percent
          response rate).

          The beneficiary surveys inquired about the frequency of equipment usage and supplier home
          visits. Beneficiaries also were asked to describe the specific services provided during the
          supplier home visits. In addition, we asked the beneficiaries if they were satisfied with the
          equipment and whether using the device had improved their quality of life in order to assess
          whether frequency of visits impacted beneficiary satisfaction or quality of life.

          Manufacturer Surveys. We conducted telephone surveys with representatives of the three
          respiratory assist device manufacturers. The surveys included questions on whether the
          equipment needs to be serviced, the type of service required, and whether servicing protocols
          have been established. Our survey also included questions about the content of servicing
          protocols, the maintenance of equipment servicing records and the existence of protocols
          regarding patient monitoring services. We requested that manufacturers provide supporting
          documentation where appropriate.

          Accreditations Agency Surveys. We interviewed, via telephone, representatives from the
          Joint Commission for Accreditation of Healthcare Organizations, the National Association of
          Home Care, the American Association for Home Care, the American Association for
          Respiratory Therapy Care, and the Advanced Medical Technology Association. We discussed
          whether these organizations have established standards or policies regarding the level of
          servicing for the respiratory assist devices under study and the monitoring of patients who use
          this equipment.

Final Sample used for Analysis


          Analysis relies upon data concerning 206 beneficiaries (74 percent of sample) for whom we
          could incorporate both the beneficiaries’ survey responses and corresponding supplier service
          records. Supplier service records regarding visits to beneficiaries are used as the primary data
          source. Information gathered from beneficiary surveys is used to enrich information gathered
          from suppliers and manufacturers.

          All of the data, gathered from various sources, is linked back to individual beneficiaries as the
          primary sampling unit. Accordingly, beneficiaries serve as the unit of analysis for

Bi-Level Respiratory Assist Device with a Back-up Rate   7                             OEI-07-99-00440
          all projected figures. All estimates regarding beneficiaries are projected to the population of all
          beneficiaries using bi-level respiratory assist devices with a back-up rate.

          The 206 beneficiaries used in the final analysis were served by 182 suppliers. As previously
          stated, 10 of the 235 beneficiaries we were able to interview over the phone were not using,
          nor had they ever used, the bi-level respiratory assist device with a back-up rate. They were
          excluded from our analysis. Further, 19 beneficiaries were eliminated from the analysis because
          their suppliers did not return surveys, failed to submit service records, or provided only
          protocols.

          The table below illustrates the final sample. For more detail of beneficiary and supplier samples
          see Appendix A.

                                                  Table 1: Final Sample

                                Completed Beneficiary Telephone Surveys    235

                                Completed Beneficiary Surveys with         10
                                Incorrect durable medical equipment

                                Completed Beneficiary Surveys without      19
                                Corresponding Supplier Service Records

                                Beneficiary Surveys Used for Analysis      206

                                Supplier Responses Used for Analysis       182


          We conducted our review in accordance with the Quality Standards for Inspections issued
          by the President’s Council on Integrity and Efficiency.




Bi-Level Respiratory Assist Device with a Back-up Rate       8                         OEI-07-99-00440
                                                  FINDINGS

Supplier services consist primarily of routine maintenance
and patient monitoring
          According to our analysis of industry publications, there are two types of equipment servicing
          potentially required by this device: internal equipment servicing and external equipment
          servicing. Further, suppliers may provide patient monitoring to ensure proper utilization of the
          equipment.

          Internal equipment servicing requires servicing the internal components of the device to insure
          proper functioning of the device. We have interpreted this to fall within the definition of
          “extensive maintenance” that is performed by authorized technicians based on manufacturers’
          recommendations for broken down components or specialized tests. The HCFA covers such
          extensive maintenance as “repairs.”

          External equipment servicing consists of cleaning and replacing device accessories. This type of
          servicing is encompassed by HCFA’s definition of “routine maintenance” which is “testing,
          cleaning, regulating and checking of the beneficiary’s equipment.” The HCFA description of
          “routine maintenance” indicates that maintenance should be the responsibility of the owner of
          the equipment, rather than of the retailer or some other person who charges the beneficiary.

          Patient monitoring includes instructing the patient on the safe and effective use and maintenance
          of the equipment, including precautions to avoid equipment contamination and patient infection.
          It may also include diagnostic activities such as obtaining blood samples to determine blood gas
          values, oximetry, and pulmonary function measurements.

          Manufacturers, suppliers, and beneficiaries all report that the services provided to beneficiaries
          consist of routine maintenance, mainly of the equipment’s accessories, and monitoring the
          patient’s interaction with the machine.

Manufacturer and supplier protocols stipulate external equipment servicing and
patient monitoring, not internal servicing

          All three manufacturers of the respiratory assist device under study report that the equipment
          itself does not require periodic internal servicing. They do indicate that external servicing is
          required. These manufacturers define external servicing as changing or cleaning the face mask,
          filter, or hose. All three manufacturers also indicate that beneficiaries’ interface with the
          equipment should be monitored on a periodic basis.




Bi-Level Respiratory Assist Device with a Back-up Rate   9                             OEI-07-99-00440
          The supplier protocols we reviewed follow the guidelines set forth by the manufacturers. They
          too indicate the device requires external and not internal servicing. Further, most suppliers have
          adopted the definition of external servicing established by the manufacturers.14 Ninety-six
          percent of beneficiaries have suppliers who indicate that this device requires “servicing.” When
          asked to explain what type of services they provide, 63 percent of suppliers in our sample
          indicate that they service the accessories (i.e., check/clean the filter, mask, or tubing) when
          visiting the beneficiary. Seventy-six percent of suppliers in our sample report checking settings
          and pressures to ensure beneficiary compliance with respiratory therapy.

Beneficiaries report that supplier visits include routine equipment servicing and
patient monitoring, not internal servicing

          The majority of beneficiaries report that their equipment was serviced during supplier home
          visits. When asked to describe the service performed, beneficiaries report that servicing
          typically includes maintaining or replacing the accessories and adjusting the setting on the
          respiratory assist device. In particular, beneficiaries who reported that they knew what
          equipment servicing was performed, indicated the following:

          <         75 percent of beneficiaries indicated suppliers brought new supplies,
          <         62 percent indicated the suppliers replaced the filter,
          <         50 percent indicated suppliers adjusted the equipment based on oxygen saturation test
                    results,
          <         17 percent indicated suppliers cleaned the filter, and,
          <         15 percent indicated suppliers cleaned the face mask and hose.

          Twenty-nine percent of beneficiaries indicated suppliers performed other services such as
          checking the hours of usage and the settings. One beneficiary indicated that the supplier had
          visited in order to replace a broken machine. Three other beneficiaries indicated suppliers had
          performed requested repairs.

          Beyond servicing the equipment, almost all beneficiaries report that the supplier representatives
          provided patient education and orientation to the equipment when the machine was first
          delivered. This education and orientation includes how to turn the machine on, how to wear the
          face mask, and how to clean the accessories. Most beneficiaries also report that the supplier
          representative followed-up with them after the equipment was first delivered. These follow-ups
          consisted mainly of ensuring that the face mask fit properly, inquiring whether the machine has
          been helpful, determining the beneficiary’s oxygen saturation level, and checking beneficiary
          vitals.




          14	
                    Eighty-six percent of the suppliers reported that they had used the manufacturer manual in
                    developing their service protocols.



Bi-Level Respiratory Assist Device with a Back-up Rate     10                                         OEI-07-99-00440
For most beneficiaries, visits do not meet supplier protocols
for frequency

          We assessed the frequency of supplier visits15 in relation to the visit schedules established in
          supplier protocols since no definition of what constitutes “frequent” servicing exists in the law.

Suppliers establish own protocols defining frequency of visits to beneficiaries

          In the absence of official policy guidance, individual suppliers have established their own
          protocols outlining the frequency and content of visits to beneficiaries using the device.16
          Generally, supplier protocols outline a separate initial visit schedule for a specific period of time
          from the date of delivery. Visits during this initial period are more frequent in order to instruct
          the patient on how to properly use, care for and clean the equipment. At the end of this period,
          presumably the patient is comfortable with how to clean and care for the equipment and the
          supplier transitions into an on-going visit schedule that is less intense. A few suppliers have
          established a visit schedule that is consistent from the date of delivery.

          The supplier protocols we examined reflect a range of frequency for initial contacts made to the
          beneficiary’s home immediately after delivery of the equipment. One supplier merely requires a
          follow-up phone call to the beneficiary; whereas another protocol requires daily visits for the
          first week, three visits the second week, two visits the 3rd week and one visit the 4th week.

          The duration of the initial visit schedule also varies by supplier. For almost half of the suppliers,
          the initial visit schedule continues for 3 months from the date of delivery before an on-going
          schedule is implemented. An additional third of suppliers indicated that their initial visit schedule
          continues for one month from the date of delivery.

          The majority of suppliers in our sample (60 percent) indicated that their on-going schedule
          consists of quarterly visits to the beneficiary’s home. An additional 28 percent of suppliers in
          our sample indicated that their on-going schedule of visits consists of monthly visits to the
          beneficiary’s home. A few suppliers indicated that their on-going schedule of visits is
          conducted based on the patient’s needs.




          15
                    While the vast majority of these visits were home visits, a few were performed over the phone.

          16	
                    Ninety-one percent of suppliers indicate that they have protocols that cover the frequency and
                    type of servicing for the device. A slightly higher percentage of suppliers indicate that they have
                    protocols that address the education and monitoring of the beneficiaries using this device.



Bi-Level Respiratory Assist Device with a Back-up Rate      11                                          OEI-07-99-00440
Supplier records revealed inconsistent visits from the supplier that do not reflect
supplier protocols

          The variation in the number of days between visits does not reflect a pattern of consistent, on-

          going visits stipulated in supplier protocols. While the median number of days between a

          beneficiary’s first visit and their second visit is 45 days, the number of days between these two

          visits ranges from 1 to 468 days. This variability appears throughout the time frame captured in

          our analysis. For example, the number of days between the third and fourth visit ranges

          between 1 and 352 days. The range between the seventh and eight visits is from 1 to 215

          days. 


          The extreme variability in the frequency of visits makes it difficult to provide an aggregate

          picture of the services being provided to beneficiaries. Table 2 offers a glimpse of actual visit

          schedules for 10 randomly selected beneficiaries, providing a sense of how visit schedules differ

          from beneficiary to beneficiary and for an individual beneficiary over time. This table lays out

          the number of days between each visit received by the beneficiary. For example, beneficiary

          one received three visits. There were 468 days between the first and second visit and 13 days

          between visit two and three. 


        Table 2: Number of Days Between Visits for a Random Selection of Beneficiaries

                              Visit       Visit      Visit    Visit    Visit    Visit    Visit    Visit       Visit
                              1 to 2      2 to 3     3 to 4   4 to 5   5 to 6   6 to 7   7 to 8   8 to 9      9 to 10

   Beneficiary #1             468         13

   Beneficiary #2             52          35         74       32       2

   Beneficiary #3             32          30         32       60       38       82       33       77          77

   Beneficiary #4             98          88         14       71       85

   Beneficiary #5             91          75

   Beneficiary #6             3           5          54

   Beneficiary #7             3           10         12       21       58       8        46       11          143

   Beneficiary #8             5           2          91       133      82

   Beneficiary #9             93

   Beneficiary #10             54         25         18       53       47       7        15       39          28




Bi-Level Respiratory Assist Device with a Back-up Rate         12                                      OEI-07-99-00440
          Column one of Table 2 represents the number of days between the beneficiaries first visit,
          typically when the machine is delivered and the patient is educated as to its use and care, and
          the second visit. As previously stated, most supplier protocols indicate that this second visit
          should occur very soon after the first visit since the introductory period often requires significant
          beneficiary support to ensure that they are receiving the maximum benefit from the machine. In
          Table 2, only three beneficiaries receive a follow-up visit within a week. Only four beneficiaries
          received a visit within a month. Beneficiary one does not receive a follow-up visit for over a
          year.

          Table 2 also accurately demonstrates that different beneficiaries receive different levels of
          service. Three beneficiaries appear to be receiving very regular visits, either monthly or
          quarterly. Other beneficiaries receive much more sporadic visits, and, some beneficiaries stop
          being visited after 3 or 4 visits. This termination of visits is not due to the fact that the
          beneficiary stopped using the machine. The average number of months that this sample of
          beneficiaries used the machine was 15 months. Beneficiary one, for example, has only three
          visits despite the fact that Medicare records show the beneficiary was using the machine for 24
          months and Medicare reimbursed the supplier a monthly rental fee for each of these months.

Majority of beneficiary survey respondents report inconsistent visits from the
supplier that do not reflect supplier protocols

          Based on the frequency outlined in supplier protocols, we would expect 85 percent of
          beneficiaries to be visited more frequently initially.17 Only 48 percent of beneficiaries indicate
          that the supplier came more often right after the ventilator was first delivered than they do at
          present. An almost equal number indicated that they did not receive more intense visits initially.

          For on-going visits, we would expect, based on an analysis of supplier protocols, that the
          majority of beneficiaries (60 percent) would be visited on a quarterly basis. However, only 27
          percent of beneficiaries reported that they were visited quarterly by the supplier. Although we
          would expect, at most, 12 percent of beneficiaries to be visited on a less frequent basis than
          quarterly, more than double that number (30 percent) were visited less than quarterly. Thirty-
          three percent of beneficiaries reported that they were visited monthly. This is in line with
          expectations based on supplier protocols.

Beneficiaries visited frequently are more likely to be using oxygen

          Beneficiaries receiving more frequent visits are more likely to be on oxygen as well as using the
          respiratory assist device. Forty-three percent of beneficiary survey respondents




          17	
                    5.8 percent of protocols called for only 1 follow up visit or phone call, 4.4 percent of initial visits
                    were based on patient needs, and 4.4 percent of protocols made no distinction between initial and
                    on-going schedules.



Bi-Level Respiratory Assist Device with a Back-up Rate        13                                           OEI-07-99-00440
          with oxygen indicated that they were visited on a more than monthly or monthly basis, whereas
          only 22 percent of beneficiaries not using supplemental oxygen indicated that they were visited
          on a monthly basis.18 Only 24 percent of beneficiaries with oxygen were visited less than
          quarterly, compared to the 57 percent of beneficiaries not on oxygen that reported less than
          quarterly visits.

          For beneficiaries on oxygen, it is difficult to ascertain whether their frequent visits are due to
          their respiratory assist device or the oxygen equipment. Individuals on oxygen are potentially
          more likely to receive regular visits because they have two pieces of equipment. Oxygen
          equipment is rented on a monthly fee schedule similar to the respiratory assist device. Two
          pieces of equipment can mean two different suppliers performing home visits or one supplier
          checking both pieces of equipment. Sixty-two percent of beneficiaries on oxygen indicated that
          the supplier serviced their oxygen equipment at the same time they came to service the
          ventilator. Eighty-six percent of suppliers in our sample indicated that they serviced other types
          of equipment at the same time they visited the beneficiary’s home to service the respiratory
          assist device.19

Beneficiary satisfaction or quality of life not dependent on frequency of visits

          The frequency of supplier visits does not seem to significantly impact beneficiaries’ levels of
          satisfaction with the machine or their sense as to whether the respiratory assist device has
          improved their quality of life. Overall, 82 percent of beneficiaries believe the bi-level
          respiratory assist device with the back-up rate has improved their quality of life. This high level
          of satisfaction remains even when beneficiaries are receiving infrequent visits. Eighty percent of
          beneficiaries report being either satisfied or very satisfied with their bi-level respiratory assist
          device despite the fact that they are receiving supplier visits less than quarterly.



Contrary to Supplier Protocols, the Number of Beneficiaries
Receiving Visits Declines Over Time

          In order to review the pattern of service delivery from the date the beneficiary received the
          respiratory assist device under study, we reviewed the supplier service records of the 89
          beneficiaries who received their device in 1999. For these beneficiaries, we had




          18
                    No beneficiaries that were without oxygen were visited more than monthly.
          19	
                    Thirty-three percent of suppliers specified that the other equipment was for oxygen. However, 44
                    percent of suppliers did not specify the type of “other respiratory equipment serviced.”



Bi-Level Respiratory Assist Device with a Back-up Rate     14                                        OEI-07-99-00440
          service records20 from the day they received their equipment through, at least, the subsequent 9

          months from their start dates. 


          We found that the number of beneficiaries receiving visits drops over time, even though

          suppliers continued to receive monthly rental reimbursements during this time. While a

          decrease in the number of visits per beneficiary is expected based on supplier protocols, a

          decrease in the number of beneficiaries receiving services is not. 


          Almost half of the beneficiaries received their last visit from their supplier within 6 months of

          receiving their machine. Twenty-one percent of beneficiaries received their last visit from the

          supplier 3 months from their start date. Eight percent of beneficiaries never received a single

          visit. Further, 32 percent of the beneficiaries did not receive a visit in the month following their

          start date.


          An analysis of the number of beneficiaries being visited quarterly, reflecting the predominate

          supplier protocol, also shows that the number of beneficiaries receiving services drops over

          time. Eighty-five percent of beneficiaries received a visit in the first quarter after they started

          using the machine. The number of beneficiaries receiving a visit within the second quarter drops

          to 59 percent. The third quarter only 52 percent of beneficiaries received a visit.


          Not only do the number of beneficiaries receiving services drop over time, but the visits these

          beneficiaries receive do not correspond to suppliers’ protocols. Based on our analysis of

          supplier protocols, 87 percent of these 89 beneficiaries should have been visited in the 6th and

          9th month from their start dates. However, less than 25 percent of beneficiaries received visits

          at these times. The total number of visits received by beneficiaries was also 20 percent below

          the expected number of visits based on supplier protocols. On average, beneficiaries receive a

          total of six visits. 


          One reasonable explanation for the declining number of beneficiaries visited is that over time

          beneficiaries learn how to properly maintain the respiratory assist device and its accessories, no

          longer requiring the assistance of a professional. Thus, the supplier may not need to continue

          visiting these beneficiaries. The Medicare population receiving this device is disproportionately

          young as compared to the entire Medicare population, and may need less assistance than more

          elderly beneficiaries. Twenty-seven percent of the users of the respiratory assist device under

          study are less than 65 years old as compared to 13 percent for the overall Medicare

          population. On the other end of the spectrum, only 6 percent of respiratory assist device users

          are 85 years old or older compared to 10 percent in the overall Medicare population. 





          20
                    Suppliers provided service records from January 1, 1999 through May, 2000.



Bi-Level Respiratory Assist Device with a Back-up Rate    15                                     OEI-07-99-00440
          Our data indicates that beneficiaries who are less than 65 years old and qualify for Medicare
          based on disability rather than age, are more likely to be visited on an infrequent basis. Sixty-
          four percent of younger, disabled beneficiaries were visited quarterly or even less frequently.
          Fifty-eight percent of disabled beneficiaries indicated that they receive extremely infrequent
          visits. In comparison, only 28 percent of aged Medicare beneficiaries (65 years old and older)
          indicated that they received extremely infrequent visits. Beneficiaries 85 years old or older are
          the most likely to indicate that they are receiving monthly visits.

          For beneficiaries that did receive visits, the use of oxygen might explain why they continue to
          receive services. Of the beneficiaries who continue to receive visits 6 months after their start
          date, 84 percent are also receiving oxygen. As previously stated, the use of oxygen makes a
          beneficiary more likely to be visited more frequently. This analysis indicates that the use of
          oxygen also makes a beneficiary more likely to continue to receive service over time.
          However, the purpose of these visits may be more about servicing the oxygen equipment than
          the respiratory assist device.



Covering the respiratory assist device under capped rental
could save Medicare $11.5 million annually
          Between January 1996 and September 1999, the Medicare program allowed $160 million for
          the respiratory assist device under study. We estimate that, if these devices were reimbursed
          under capped rental methodology, Medicare would have only allowed $117 million. This
          yields a savings of $43 million for this 45 month period, or $11.5 million annually. This
          represents approximately 27 percent of the total Medicare allowed payments for this device.

          This estimate of savings is extremely conservative. In determining how much Medicare would
          have been reimbursed under the capped rental category, we used the highest known purchase
          price for a bi-level respiratory assist device with back-up rate to determine the monthly
          payments. This price, $6,750, represents the most expensive and least purchased respiratory
          assist device. We also assumed that no beneficiaries choose to purchase the machine, but
          rather rented it for the full capped rental period of 15 months. For beneficiaries who do not
          choose the purchase option and continue to rent the device on their own after the 15 months,
          the supplier is allowed a semi-annual maintenance fee. This fee was also factored in to our
          calculations.

          The average number of months a beneficiary used the device between January 1996 and
          September 1999 was 16 months. This is 1 month beyond the length of the allowed rental
          period under capped rental. In fact, 57 percent of beneficiaries rent the respiratory assist
          device for less than 15 months. The number of rental months ranged from 1 to 45 months.




Bi-Level Respiratory Assist Device with a Back-up Rate   16                           OEI-07-99-00440
          On average, the total allowable charge per beneficiary, under the frequent and substantial
          payment methodology, was $8,557, which is higher than the most expensive retail price for a
          bi-level respiratory assist device of $6,750. In fact, half of the beneficiaries had allowable
          charges that exceeded this retail price. These beneficiaries’ allowable charges represent 85
          percent of the total allowable charges.

Services would be covered under capped rental for the majority of beneficiaries

          With both the frequent and substantial servicing payment category and capped rental, the
          supplier is paid a monthly rental fee for, at least, the first 13 months. Thus, for the first 13
          months, suppliers are receiving similar reimbursement with equivalent expectations and should
          provide service to beneficiaries with respiratory assist equipment in the same manner.

          After the 13th month (or the 15th month if the beneficiary chooses not to purchase the
          equipment under capped rental), the two payment methodologies diverge. Items in the frequent
          and substantial payment category would continue to be reimbursed a monthly rental fee until
          such time as the medical necessity ends. Reimbursement for servicing is covered within that
          fee. Under capped rental, if a beneficiary opts not to purchase the equipment at the end of the
          capped rental period but rather continue to rent it on their own, the carrier will reimburse the
          supplier a “maintenance and servicing payment.” This fee is payable every 6 months, whether
          servicing is provided or not. For purchased respiratory assist devices, maintenance and
          servicing payments are made when repairs are “necessary to make the equipment serviceable.”

          Given the continued ability of suppliers to bill for periodic servicing, we believe the divergence
          in payment after the 13th or 15th month should not alter the frequency of contact between the
          provider and the patient. Fifty-seven percent of beneficiaries utilize a bi-level RAD for less than
          15 months. One study found that, on average, beneficiaries utilize respiratory assist devices for
          less than 12 months.

          For those beneficiaries who continue to need the machine beyond the 15 months, our analysis
          reveals that 76 percent of them did not receive a visit after the 15th month. Of those who
          continued to use the bi-level RAD and receive visits after 15 months, 83 percent of them were
          also on oxygen and would be receiving home visits to monitor their oxygen usage.

          Beyond the ability to bill for periodic servicing under capped rental, suppliers would also be
          able to bill separately for the accessories that must be periodically replaced.21 Currently, they
          cannot bill for these items under the frequent and substantial payment




          21	
                    Special exception was made for accessories for RADs that were reclassified from frequent and
                    substantial servicing to capped rental under OBRA 1993.



Bi-Level Respiratory Assist Device with a Back-up Rate    17                                        OEI-07-99-00440
          category. The necessary accessories (i.e., face mask, hose, and filter) for the device also are
          used for other respiratory assist devices and thus already have their own HCPC codes with
          which to bill HCFA.




Bi-Level Respiratory Assist Device with a Back-up Rate   18                            OEI-07-99-00440
                              RECOMMENDATIONS


HCFA should move the bi-level respiratory assist device with
a back-up rate from the frequent and substantial servicing to
the capped rental payment category
          The HCFA’s intention to move the bi-level respiratory assist device with back-up rate from the
          frequent and substantial payment category to the capped rental payment category appears to be
          justified. Beyond capturing savings, our findings indicate that the bi-level respiratory assist
          device with back-up rate primarily requires routine maintenance and patient monitoring.
          Further, this level of servicing is not performed frequently, often stopping after a short period of
          time.

          The servicing that is being provided does not exceed the monthly coverage that would be
          covered under capped rental for the first 13 or 15 months. The minimal level of servicing paid
          for after the 15 months or purchase of the machine corresponds with our finding that visits to
          beneficiaries drop over time, with almost half of beneficiaries receiving their last visit within 6
          months of equipment delivery.




Bi-Level Respiratory Assist Device with a Back-up Rate   19                             OEI-07-99-00440
                               AGENCY COMMENTS

          The HCFA concurred with our recommendation, stating that they plan to move the bi-level
          respiratory assist device with a back-up rate from the “frequent and substantial servicing”
          payment category to the “capped rental” payment category. They believe this change is needed
          to accurately reflect the requirements of Section 1834(a)(3) of the Social Security Act.




Bi-Level Respiratory Assist Device with a Back-up Rate   20                       OEI-07-99-00440
                                                                                    APPENDIX A


                                                         Sample Data


Beneficiary Sample

This table provides detailed information regarding the sample of beneficiaries contacted for the
telephone survey.


                                                           Stratum 1         Stratum 2
 Sample Category                                           Ventilator    Ventilator And            Total
                                                                                Oxygen
 Total Population                                              4,047             14,288           18,992
 Original Sample                                                   150             150                300
 Excluded by Office of Investigations                                9              12                 21
 Revised Sample                                                    141             138                279
 Deaths                                                              5               2                      7
 Unable To Contact Beneficiary                                      21              16                 37
 Completed Surveys                                                 115             120                235
 Incorrect piece of durable medical                                  5               5                 10
 equipment
 No Supplier Surveys                                                12               7                 19
 Completed Surveys used for Analysis                                98             108                206




Bi-Level Respiratory Assist Device with a Back-up Rate        21                          OEI-07-99-00440
                                                                                APPENDIX A


                                                         Sample Data

Supplier Sample

This table lists by category the universe to the total number of completed supplier surveys used for
analysis.



                                       Sample Category                  Total
                     Total Suppliers in Sample                          250
                     Excluded by Office of Investigations                21
                     Revised Total                                      229
                     Did Not Return Surveys                              23
                     Completed Surveys                                  206
                     No Beneficiary Phone Surveys                        24
                     Completed Surveys Used for Analysis of             182
                     Supplier Sample




Bi-Level Respiratory Assist Device with a Back-up Rate       22                    OEI-07-99-00440
                                                                                   APPENDIX B



                        Confidence Intervals for Selected Statistics


          The following table shows the point estimates, sample sizes and 90 percent confidence intervals
          for selected statistics in the order that they appear in the report. These calculations account for
          the stratification of the sample as described in the methodology.



                                                                                      90 Percent
                                                                Point                 Confidence
                           Statistic                           Estimate      n         Interval
 Percentage of beneficiaries that indicated suppliers           75.4 %       120        68% to 83%
 brought new supplies during their visits

 Percentage of beneficiaries that indicated suppliers           61.9%        120        54% to 70%
 replaced filter

 Percentage of beneficiaries that indicated suppliers           50.4 %       120        42% to 58%
 adjusted the equipment based on oxygen saturation
 test

 Percentage of beneficiaries that indicated suppliers           16.8 %       120        11% to 23%
 cleaned the filter

 Percentage of beneficiaries that indicate suppliers            14.7%        120         9% to 20%
 cleaned the face mask and hose

 Percentage of beneficiaries that indicated that the            48.4 %       197        42% to 55%
 supplier visited more frequently initially

 Percentage of beneficiaries reporting quarterly visits         26.7 %       197        21% to 33%

 Percent of beneficiaries reporting visits less than            31.5 %       197        26% to 37%
 quarterly

 Percent of beneficiaries reporting monthly visits              33.1%        197        27% to 39%




Bi-Level Respiratory Assist Device with a Back-up Rate    23                           OEI-07-99-00440
                                                                                  APPENDIX B


                 Confidence Intervals for Selected Statistics (cont.)




                                                                                    90 Percent
                                                                  Point             Confidence
                           Statistic                             Estimate   n        Interval
 Percent of beneficiaries who did not receive a single             7.6%     89        3% to 12%
 visit the entire nine months

 Percent of beneficiaries who did not receive a visit the          32%      89        23% to 41%
 month following their start date

 Percent of beneficiaries receiving visits in the first            85.4%    89        78% to 92%
 quarter after their start date

 Percent of beneficiaries receiving visits in the second           58.9%    89        49% to 69%
 quarter after their start date

 Percent of beneficiaries receiving visits in the third            51.9%    89        42% to 62%
 quarter after their start date

 Percent of beneficiaries receiving bi-level RAD in 1999          76.8 %    89        69% to 85%
 with no visits in the 6th month

 Percent of beneficiaries receiving bi-level RAD in 1999           77.3%    89        69% to 85%
 with no visits in the 9th month

 Percent of beneficiaries who utilize bi-level RAD for             56.9%    206       50% to 63%
 less than 15 months.

 Percentage of beneficiaries, using the bi-level RAD               76%      94        68% to 84%
 beyond 15 months, who did not receive a visit after 15
 months.

 Percentage of beneficiaries, using the bi-level RAD               83.3%    21        74% to 93%
 beyond 15 months and receiving visits after 15 months,
 who are also on oxygen.




Bi-Level Respiratory Assist Device with a Back-up Rate      24                       OEI-07-99-00440
                                                                                           APPENDIX C


                                     Results of Hypothesis Testing


The following tables show the results of the hypothesis testing conducted in our analysis. We used the
chi-square statistic to evaluate statistical significance since the variables we were analyzing were
categorical.



                                      Frequency of Supplier Visits by Oxygen
                           Visited                Visited         Visited      Visited Less    Don’t Know
                          More than               Monthly        Quarterly         than         how often
                          Monthly                                               Quarterly        visited
     Without                   0%                  21.5%          19.3%              57%            2.1%
     Oxygen
 With Oxygen                  6.7%                 36.5%          28.9%           24.0%             3.8%

Significant at the 0.0000 level, DF=4




                                        Frequency of Supplier Visits by Age
                            Visited            Visited       Visited      Visited Less     Don’t Know how
                           More than           Monthly      Quarterly         than           often visited
                           Monthly                                         Quarterly
   Less than 65                8.3%              23.9%       39.5%           24.7%              3.7%
    years old
       65- 74                  2.2%              38.1%       23.9%           35.6%                0%


        75-84                  4.4%              34.4%       17.5%           36.4%              7.3%


  Greater than          12.0%        39.9%                   36.0%           12.0%                0%
 or equal to 85
Significant at the .05 level, DF = 4



Bi-Level Respiratory Assist Device with a Back-up Rate      25                                 OEI-07-99-00440
                                                                                       APPENDIX C


                                     Results of Hypothesis Testing



                                      Frequency of Visits by Medicare Status
                           Visited                Visited         Visited    Visited Less   Don’t Know
                          More than               Monthly        Quarterly       than        how often
                          Monthly                                             Quarterly       visited
 Aged                         6.0%                 35.3%          27.5%        27.7%             3.5%
 Disabled               0%           22.0%                         16%         58.0%             4.0%
Significant at the 0.0000 level, DF=10




Bi-Level Respiratory Assist Device with a Back-up Rate      26                              OEI-07-99-00440
                                                                                APPENDIX D


                                           Non-Response Analysis



          A consideration in survey analysis is that the results may be biased if non-respondents are

          significantly different from respondents. To determine whether a difference exists in this survey,

          we compared the two groups, respondents and non-respondents, by age and oxygen usage. 

          We chose these variables since our analysis of respondents showed they had an impact on the

          frequency of visits, a core concern of the evaluation.


          Our analysis showed no statistically significant difference between respondents and 

          non-respondents with respect to age. There was a statistically significant difference between

          respondents and non-respondents with respect to oxygen usage. We found that beneficiaries

          on oxygen had a higher response rate (77 percent) compared to non-respondents on oxygen

          (68 percent). The computed chi-square statistic (2.78) is statistically significant at the 90

          percent confidence level. This indicates a potential for bias in the results. 


          In order to ascertain the impact of the response rate on frequency of visits, we undertook an

          analysis of the non-respondents. Assuming that non-respondents would have answered the

          same as respondents, we imputed non-respondents’ likely answers regarding frequency of visits

          based on the distribution represented by similar respondents. The inclusion of non-respondents

          did not alter the findings presented. For example, we found that 36.54 percent of beneficiaries

          on oxygen were visited monthly. Had we included non-respondents, the number of

          beneficiaries on oxygen that were visited monthly would have been 36.57 percent. This

          difference is within the confidence interval of our original estimate of 8 percent. Thus, we found

          no statistical evidence of bias based on oxygen usage.





Bi-Level Respiratory Assist Device with a Back-up Rate   27                           OEI-07-99-00440
                                                                   APPENDIX E


                                               Agency Comments 





Bi-Level Respiratory Assist Device with a Back-up Rate   28           OEI-07-99-00440
                                                                          APPENDIX F


                       Related Office of Inspector General Reports



          Usage and Documentation of Home Oxygen Therapy (OEI 03-96-00090)

          Medicare Payments for Pressure Reducing Support Services (OEI 02-95-00370)

          Oxygen Concentrator Services (OEI-03-91-01710)




Bi-Level Respiratory Assist Device with a Back-up Rate   29                    OEI-07-99-00440
